CERTIFICATE OF SERVICE
I hereby certify that a true and accurate copy of the foregoing, including the
attached Appendix, along with the preceding Motion to Proceed in Forma Pauperis
and its attachment, was served pursuant to Supreme Court Rules 29(3), (4)(a), and
(5)(b) on this 16th Day of July, 2021, via overnight FedEx delivery service, postage
prepaid, upon the following persons:
Robert M. Duncan, Jr.
Charles P. Wisdom Jr.
John Patrick Grant
United States Attorney’s Office
260 West Vine Street, Suite 300
Lexington, Kentucky 40507-1612
Counsel for Appellee / Respondent
(859) 685-4904
-andSolicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.,
Washington, DC 20530-0001
(202) 514-2203
I further certify that an electronic copy shall be sent to the following email
addresses:
John.Patrick.Grant@usdoj.gov
SupremeCtBriefs@usdoj.gov
SupremeCourtBriefs@usdoj.gov

Blake P. Somers (0078006)
Counsel for Petitioner

